+




             U.S. Department of Energy
             Office of Inspector General
             Office of Inspections




Inspection Report

    Inspection of Explosives Safety at
    Selected Department of Energy Sites




    DOE/IG-0578                            December 2002
                                                                                                  *-




                                      Department of Energy
                                          Washington, DC 20585

                                          December 19, 2002



        MEMORANDUM FOR THE S

        FROM:
                                      Inspector General

.   -   SUBJECT:                      INFORMATION: Report on “Inspection of Explosives
                                      Safety at Selected Department of Energy Sites”

        BACKGROUND

        The Office of Inspector General, U.S. Department of Energy (DOE), conducted an
        inspection at the Nevada Operations Office (NVO) and the Oak Ridge Operations Office
        (ORO) to determine if explosives were being stored in accordance with applicable DOE
        requirements.

        RESULTS OF NSPECTION

        We concluded improvements could be made in the areas of explosives safety, fire safety,
        and lightning safety. Specifically, we found that degradation review programs regarding
        explosives shelf-life were not f d l y implemented at NVO and ORO; DOE had not
        incorporated the “DOE Explosives Safety Manual” into all applicable contracts;
        combustible material was inappropriately stored near explosives at NVO; and tests of
        lightning protection on NVO explosive storage magazines were not completed
        consistently.

        We recommended that the Manager, Nevada Operations Office:

        0   Ensure a robust degradation review program regarding explosives shelf-life;

        0   Apply the DOE Explosives Safety Manual to NVO contractors and other entities that
            handle and store explosives at DOE facilities;

            Ensure fire safety at explosive storage magazines at DOE facilities; and

        0   Determine whether NVO contractors and entities that store explosives at DOE
            facilities should implement a lightning protection testing program.
Further, we recommended that the Manager, Oak Ridge Operations Office:

   Ensure a robust degradation review program regarding explosives shelf-life; and

   Apply the DOE Explosives Safety Manual to OR0 contractors and other entities that
   handle and store explosives at DOE facilities.

Since this report was first issued, in draft, the Department has undergone certain
organizational changes which have affected the office designations identified in this
report. For ease of use, we have not altered the designations used in this report.

MANAGEMENT REACTION

Management concurred with the recommendations and has initiated, or is in the process
of initiating, appropriate corrective actions.

Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science and Environment
    Administrator, National Nuclear Security Administration
    Assistant Secretary for Environment, Safety and Health
    Director, Office of Science
    Manager, Nevada Operations Office
    Manager, Oak Ridge Operations Office
    Director, Policy and Internal Controls Management, NA-66
INSPECTION OF EXPLOSIVES SAFETY AT
SELECTED DEPARTMENT OF ENERGY SITES



TABLE OF
CONTENTS



              OVERVIEW

              Introduction and Objective     1

              Observations and Conclusions   1


              DETAILS OF FINDINGS            2

              Explosives Safety              2

              Fire Safety                    3

              Lightning Safety               3


              RECOMMENDATIONS
               AND COMMENTS                  4


              APPENDIX

              A. Management Comments         5

              B. Scope and Methodology       9
Overview

INTRODUCTION       The Office of Inspector General initiated an inspection to evaluate
AND OBJECTIVE      the implementation of explosive safety requirements at the Nevada
                   Operations Office (NVO) and the Oak Ridge Operations Office
                   (ORO). At NVO’s Nevada Test Site, we inspected Department of
                   Energy (DOE) explosive storage facilities operated by Wackenhut
                   Services, Inc., Bechtel Nevada, the University of California, and
                   the Defense Threat Reduction Agency (DTRA). Although DTRA
                   is a Department of Defense component, it is using DOE’s Nevada
                   Test Site and storage facilities jointly with DOE contractors. At
                   Oak Ridge, the explosive storage facilities were operated by
                   Bechtel Jacobs Company and UT-Battelle.

                   NVO stores over 15,000 pounds of explosives and ORO
                   approximately 90 pounds. Examples of explosives stored at NVO
                   include C-4 plastic explosives, trinitrotoluene (TNT) and other
                   military high-explosives. Explosives stored at ORO include
                   demolition material called detasheet, blasting caps, and TNT.

                   The objective of this inspection was to determine if DOE facilities
                   that store explosives were doing so in accordance with applicable
                   DOE requirements regarding degradation review, fire safety and
                   lightning safety. This inspection report complements our draft
                   report on “Inspection of Explosives Security at Selected
                   Department of Energy Sites.”

OBSERVATIONS AND   We concluded improvements can be made in the areas of
CONCLUSIONS        explosives safety, fire safety, and lightning safety. Specifically,
                   we found that:

                       •   degradation review programs regarding explosives
                           shelf-life have not been fully implemented at NVO and
                           ORO;

                       •   DOE had not incorporated the “DOE Explosives Safety
                           Manual” into one of the contracts at NVO or both of the
                           contracts at ORO;

                       •   combustible material was inappropriately stored in
                           explosive storage magazines at NVO; and

                       •   lightning protection tests on explosive storage magazines
                           at NVO were not being consistently completed by all
                           contractors.




Page 1                                        Inspection of Explosives Safety at
                                              Selected Department of Energy Sites
Details of Findings

Explosives Safety     The “DOE Explosives Safety Manual,” DOE M 440.1-1, states that
                      each facility shall have a program to review explosive material
                      because it is possible that explosives can degrade during prolonged
                      storage, and that the hazards of handling and using degraded
                      explosives may increase significantly. To facilitate this review, the
                      manual recommends that a storage review date, based upon the
                      explosives stability data or the manufacturer’s shelf-life, be
                      assigned to every bulk explosive placed in storage. The
                      importance of complying with this portion of the “DOE Explosives
                      Safety Manual” increases when manufacturer’s shelf-life or other
                      safety data is unknown.

                      We determined that degradation review programs regarding
                      shelf-life have not been fully implemented at NVO and ORO.
                      NVO has issued a Standard Operating Procedure, “Chapter 5412
                      Explosives Safety,” requiring that shelf-lives of explosives be
                      recorded on inventories. However, during the inspection we
                      identified explosives inventories that did not include shelf-life
                      information or posted shelf-life information as “unknown.” We
                      found that Wackenhut Services, Inc., included shelf-life
                      information with their inventories; Bechtel Nevada inventories
                      contained shelf-life information but listed it as “unknown;” and,
                      the University of California and DTRA did not include shelf-life
                      information with inventories. Although DTRA is a Department of
                      Defense component, it is using DOE’s Nevada Test Site and
                      facilities jointly with DOE contractors. We also determined that
                      the University of California and Wackenhut Services, Inc., had in
                      place written procedures regarding the review of explosives
                      degradation, but that the other two contractors did not. Finally, we
                      found that NVO did not incorporate the “DOE Explosives Safety
                      Manual” into its contract with Wackenhut Services, Inc., although
                      it had incorporated it into the other contracts at the Nevada Test
                      Site.

                      Unlike NVO, ORO procedures do not specify that shelf-life
                      information be reviewed upon receipt of explosives, but it was
                      being reviewed at the time of receipt. Further, we determined that
                      the requirements of the “DOE Explosives Safety Manual” were not
                      included in the UT-Battelle contract and the Bechtel Jacobs
                      Company contracts at ORO.




Page 2                                                                Details of Findings
Fire Safety        We found problems with the storage of combustible material in
                   explosive storage magazines at the Nevada Test Site. An
                   explosive storage magazine is defined as a structure designed or
                   specifically designated for the long-term storage of explosives or
                   ammunition. The “DOE Explosives Safety Manual” states that
                   combustible materials such as excess pallets, packing material, and
                   unused boxes shall not be stored in magazines containing
                   explosives. However, our review disclosed that combustible
                   material was located in the DOE-owned magazine operated by
                   DTRA, including empty packing material, wooden pallets and
                   containers. Explosives stored in this magazine included C-4
                   plastic explosives, several 2,000 pound bombs and detonation
                   cord. In addition, a magazine operated by Wackenhut Services,
                   Inc., contained approximately 150 pieces of wood to be used to
                   stack incoming explosives. This magazine held military type high
                   explosives. An NVO official informed us that the lumber was
                   stored inside of the magazine because harsh environmental
                   conditions would cause undue deterioration. We are concerned
                   that these materials provide additional combustion sources that
                   create an additional and easily preventable hazard. We did not find
                   a fire safety concern at Oak Ridge.

Lightning Safety   We also examined explosive facilities equipped with lightning
                   protection that were used by four contractors who maintained
                   explosives at the Nevada Test Site. A standard industry practice
                   for facilities with these types of lightning protection features is to
                   conduct periodic testing. Although not a contract requirement, we
                   found that the University of California and DTRA were conducting
                   periodic tests. In contrast, Bechtel Nevada and Wackenhut
                   Services, Inc. were not. At Oak Ridge, we observed no lightning
                   protection issues.




Page 3                                                            Recommendations
RECOMMENDATIONS   We recommend that the Manager, Nevada Operations Office:

                  1. Ensure that a robust degradation review program regarding
                     explosives shelf-life is implemented by all entities using NVO
                     facilities.

                  2. Ensure that the DOE Explosives Safety Manual is incorporated
                     as applicable with NVO contractors and other entities that
                     handle and store explosives at DOE facilities.

                  3. Ensure that explosive storage magazines at DOE facilities are
                     maintained in accordance with the fire safety requirements of
                     the DOE Explosives Safety Manual.

                  4. Determine whether contractors and entities at NVO that store
                     explosives at DOE facilities should implement a lightning
                     protection testing program.

                  We recommend that the Acting Manager, Oak Ridge Operations
                  Office:

                  5. Ensure that a robust degradation review program regarding
                     explosives shelf-life is implemented by all ORO entities using
                     DOE facilities.

                  6. Ensure that the DOE Explosives Safety Manual is incorporated
                     as applicable with ORO contractors and other entities that
                     handle and store explosives at DOE facilities.

MANAGEMENT AND    Management provided comments indicating that they are taking
INSPECTOR         action to strengthen explosive safety at NVO and ORO in response
COMMENTS          to our concerns. We agree that these actions are responsive to our
                   recommendations. The Department’s verbatim comments are
                   included as Appendix A.




Page 4                                                  Management Comments
Appendix A



                                Department of Energy
                            National NuclearSecurity Administration
                                    w    a OpOrcmMll Wir
                                        RO.Box 98518
                                   laVegas, NV88183-8518


                                        OCT.23 Pgt




         COMMENTS ON DRAFT REPORT "LNSPECTIONOF EXPLOSIVES SAFETY AT
         SELECTED DOE SI7ES"




Page 5                                                                Management Comments
Appendix A (continued)




         ESHD:JKR-3004
         SHM 07-01
         cc:
         D.M.Mioil&NNSlvHp (NA-117)GTN
         J. C. Vande sand,DOmQ
            (IG40)FORS
         J. J. Mangeno, NNSlvHQ @A-53) F O B




Page 6                                         Management Comments
Appendix A (continued)




 United S t a t e s Government                                                              Department of Energ
                                                                                         Oak Ridge Operations Offic
 memorandum
  DATE.       November 1,2002
 F E R Y TO
 ATTN OF:     FM-733:Miller

 SUIUECT:     RESPONSE TO DRAFT REPORT "INSPECTIONOF EXPLOSIVES SAFETY AT
              SELECTED DOE SITES"
     TO:      Christopher R. Sharpley, Acting Inspector General for Inspections,IG-40/FORS



              This is in response to your August 2 1,2002, memorandum, with attached draft report, as
              revised on October 28, 2002.

              Oak Ridge Operations Office concurs in the report Recommendations 5 and 6, and the derails
              on planned actions are attached.




                                                                dith M. Penry
                                                               Chief Financial Officer

              Attachment

              cc:
              S. G. Hiser, AD-421
              J. 0. Moore, LM- I 1
              D.H. Sumner, IG-43




Page 7                                                                        Management Comments
Appendix A (continued)




                                                                                      Attachment



                                OAK RIDGE OPERATIONS OFFICE
                                COMMENTS ON IG D   m REPORT

                        “Inspection of Explosives Safety at Selected DOE Sites’’


         The following is the Oak Ridge Operations Office (ORO) position on the audit report
         recommendations applicable to this office:

         We recommend that the OR0 Acting Manager:

         5. Ensure that a robust degradation review program regarding explosives shelf life is
            implemented by all OR0 entities using DOE facilities.

            Management. Concur. The Standards-Based Management System subject
            area “Explosives” will be revised to include the requirement for an annual
            degradation review of all explosives. Also, the hazardous material information
            system will be enhanced to provide automatic e-mail notifications to explosives
            custodians for the annual reviews related to stability and shelf-life issues. These
            actions are targeted to be completed by November 30,2002.

         6. Ensure that the DOE Explosives Safety Manual is incorporated as applicable to OR0
            contractors and other entities that handle and store explosives at DOE facilities.

            Manaeement Rcswnse. Concur. OR0 Will use the Work Smart Standards process to
            include only appropriate sections of the Manual in the contract.




Page 8                                                                        Management Comments
Appendix B

SCOPE AND     This inspection was conducted in accordance with the Quality
METHODOLOGY   Standards for Inspections issued by the President’s Council on
              Integrity and Efficiency. The fieldwork portion of this inspection
              was completed in early 2002 and involved facilities under the
              cognizance of OR0 and NVO.

              We interviewed officials at ORO, NVO, and their contractors. We
              reviewed pertinent records and documents pertaining to the
              Department’s explosives storage and handling procedures.




Page 9                                               Scope and Methodology
                                                                    IG Report No. DOE/IG-0578

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
